                           UNITED STATES DEPARTMENT OF EDUCATION

                                             OFFICE OF INSPECTOR GENERAL

                                                                        THE INSPECTOR GENERAL
  AUG 2 9 2012

The Honorable Christy L. Romero
Special Inspector General
 for the Troubled Asset Relief Program
1801 L Street, N.W.
Washington, DC 20220

Subject: Report on the Quality Assessment Review of the Investigative Operations of the Office of
Inspector General for the Special Inspector General for the Troubled Asset Relief Program

Dear Ms. Romero:

We have reviewed the system of internal safeguards and management procedures for the investigative
function of the Special Inspector General for the Troubled Asset Relief Program (SIGTARP) in effect for
the period ending May 2012. Our review was conducted in conformity with the Quality Standards for
Investigations and the Quality Assessment Review guidelines established by the Council of the Inspectors
General on Integrity and Efficiency (CIGIE), as well as the Attorney General's Guidelines for Offices of
Inspectors General with Statutory Law Enforcement Authority, as applicable.

We reviewed compliance with the SIGTARP system of internal policies and procedures to the extent we
considered appropriate. The review was conducted at your offices in Washington, D.C. and New York.
Additionally, we reviewed all 32 case files for investigations closed during the previous 12-month period.

In performing our review, we have given consideration to the prerequisites of Section 6(e) ofthe
Inspector General Act of 1978, as amended, (IG Act) and Section 812 of the Homeland Security Act of
2002 (Pub.L. 107-296). Those documents authorize law enforcement powers for eligible personnel of
each of the various offices of presidentially appointed Inspectors General. Those powers may be
exercised only for activities authorized by the IG Act, other statutes, or as expressly authorized by the
Attorney General.

In our opinion, the system of internal safeguards and management procedures for the investigative
function of the SIGTARP in effect for the year ended May 2012, is in compliance with the quality
standards established by CIGIE and the applicable Attorney General guidelines. These safeguards and
procedures provide reasonable assurance of conforming with professional standards in the planning,
execution, and reporting of its investigations.

Sincerely,



 cr""~ ~\.yv-
Kathleen S. Tighe
Inspector General
